Appendix

Appendix A: dkt. 116 - 9/4/2019 — Order by District Court denying
Rule 60(b)(6) motion.

30

Case: 3:14-cv-00274-jdp Document#: 116 Filed: 09/04/19 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
SABINA BURTON,
Plaintiff,
v.

ORDER

BOARD OF REGENTS OF THE UNIVERSITY OF
WISCONSIN SYSTEM, THOMAS CAYWOOD,
ELIZABETH THROOP, and MICHAEL DALECKI,

14-cv-274-jdp

Defendants.
Plaintiff Sabina Burton filed this lawsuit in 2014, alleging discrimination and retaliation
by University of Wisconsin—Platteville officials. In 2016, I granted defendants’ motion for
summary judgment and dismissed the case because I concluded that no reasonable jury could
find in Burton’s favor. Dkt. 90. That decision was affirmed on appeal. See Burton v. Bd. ofRegents
ofUniv. of Wisconsin Sys., 851 F.3d 690 (7th Cir. 2017). Now, almost three and a half years
after I entered judgment for defendants, Burton has filed a pro se motion to vacate the
judgment entered against her under Federal Rule of Civil Procedure 60(b)(6). Dkt. 113. She
contends that relief from judgment under Rule 60 is warranted because “[ijmportant, material
documents that were used as basis for [her] dismissal were withheld and hidden from her” in
her 2014 case. Dkt. 115, at 3.
I will deny Burton’s motion because Rule 60 does not afford the relief that she seeks.
Under Rule 60(b), a court may relieve a party from a final judgment and re-open the case for
any of the following reasons:
(1) Mistake, inadvertence, surprise, or excusable neglect;

Case: 3:14-cv-00274-jdp Document #: 116 Filed: 09/04/19 Page 2 of 3

(2) Newly discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a new trial
under Rule 59(b);
(3) Fraud . . ., misrepresentation, or misconduct by an opposing
party;
(4) The judgment is void;
(5) The judgment has been satisfied, released, or discharged; it is
based on an earlier judgment that has been reversed or
vacated; or applying it prospectively is no longer equitable; or
(6) Any other reason that justifies relief.
Burton is seeking relief from judgment because of newly discovered evidence, as provided under
Rule 60(b)(2). The problem is that a motion under Rule 60(b) “must be made within a
reasonable time—and for reasons (1), (2), and (3) no more than a year after the entry of the
judgment.” Fed. R. Civ. P. 60(c). Here, it has been more than three years since the entry of
judgment, so any motion to reopen the case under Rule 60(b)(2) is untimely. Rule 60(b)’s oneyear time limit “is jurisdictional and cannot be extended.” Arrieta v. Battagli, 461 F.3d 861, 864
(7th Cir. 2006). This is so even where the moving party is not at fault for the failure to discover
the evidence in question, and even when the newly discovered evidence would have a
significant bearing on the case. See Cent. States, Se. & Sw. Areas Pension Fund v. Cent. Cargage
Co., 69 F.3d 1312, 1315 (7th Cir. 1995) (“[T]here is no exception to Rule 60(b)(2) for
‘conclusive’ evidence.”).
Burton attempts to circumvent these rules by framing her motion as brought under Rule
60(b)(6), which carries no fixed time limit for filing. But “if the asserted ground for relief falls
within one of the enumerated grounds for relief subject to the one-year time limit of Rule 60(b),
relief under the residual provision of Rule 60(b)(6) is not available. To permit relief under the
catchall provision in such situations would render the one-year time limitation meaningless.”
2

Case: 3:14-cv-00274-jdp Document #: 116 Filed: 09/04/19 Page 3 of 3

Arrieta, 461 F.3d at 865 (internal citations omitted). Burton’s motion is premised entirely on
the alleged discovery of new evidence, so it does not qualify for relief under Rule 60(b)(6).
Because Burton’s Rule 60(b) motion is untimely, I will deny her request to vacate the
2016 judgment.

ORDER
IT IS ORDERED that plaintiff Sabina Burton’s motion for relief from judgment under
Rule 60(b), Dkt. 113, is DENIED.
Entered September 4, 2019.
BY THE COURT:
/«/

JAMES D. PETERSON
District Judge

3

Appendix B: Dkt. 118-9/19/19- Text only order by District Court
DENYING MOTION FOR RECONSIDERATION OF RULE 60(B)(6) MOTION.

34

9/19/2019

Mail - Sabina Burton - Outlook

Activity in Case 3:14-cv-00274-jdp Burton, Sabina v. Board of Regents of the University
of Wisconsin System et ai Order on Motion for Reconsideration
wiwd_ecf@wiwd.uscourts.gov
Thu 9/19/2019 11:57 AM
To: wiwd_nef@wiwd.uscourts.gov <wiwd_nef@wiwd.uscourts.gov>
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript,
the free copy and 30 page limit do not apply.
U.S. District Court
Western District of Wisconsin
Notice of Electronic Filing
The following transaction was entered on 9/19/2019 at 1:57 PM CDT and filed on 9/19/2019
Case Name:
Burton, Sabina v. Board of Regents of the University of Wisconsin System et al
3:14-cv-Q0274-jdp
Case Number:
Filer:
WARNING: CASE CLOSED on 03/18/2016
Document Number: 118(No document attached)
Docket Text:
** TEXT ONLY ORDER **
Plaintiff Sabina Burton has filed a motion for reconsideration of my September 4, 2019
order denying her motion for relief from judgment under Rule 60(b). Dkt. [117]. She cites
no authority that persuades me that my decision was incorrect, so her motion is
DENIED. If Burton disagrees with my decision, her remedy is to file an appeal. I will not
consider any additional motions on this issue. Signed by District Judge James D.
Peterson on 9/19/2019. (rks),(ps)

3:14-cv-00274-jdp Notice has been electronically mailed to:
Anne Maryse Bensky
Katherine D. Spitz
Sabina Burton

benskyam@doj.state.wi.us, mauksc@doj.state.wi.us
spitzkd@doj.state.wi.us, mauksc@doj.state.wi.us

sabinaburton@live.com

3:14-cv-00274-jdp Notice will be delivered by other means to::
https://outlook.live.com/mail/deeplink?version'=2019091601.10&popoutv2= 1

1/2

Appendix C: Dkt. 121-3/11 /20 - Order by district Court denying
Rule 37 MOTION.

36

Case: 3:14-cv-00274-jdp Document #: 121 Filed: 03/11/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
SABINA BURTON,
Plaintiff,
v.

ORDER

BOARD OF REGENTS OF THE UNIVERSITY OF
WISCONSIN SYSTEM, THOMAS CAYWOOD,
ELIZABETH THROOP, and MICHAEL DALECKI,

14-cv-274-jdp

Defendants.
Plaintiff Sabina Burton has filed yet another motion seeking to reopen this long-closed
case. Dkt. 119. Again, she contends that defendants withheld documents in discovery, which
is an issue she has raised before. Dkt. 113. In my last order, I told her that I would not consider
any additional motions on this issue. Dkt. 118.
This time, she invokes the “fraud on the court” doctrine, under which a court may
exercise its inherent authority to set aside a judgment obtained by fraud even after the statutory
period for seeking relief from a final judgment has expired. See Hazel-Atlas Glass Co. v. Hartford
Empire Co., 322 U.S. 238, 244 (1944), overruled on other grounds by Standard Oil Co. of Cal. v.
United States, 429 U.S. 17 (1976); Fed. R. Civ. P. 60(d)(3). Despite the invocation of a new
legal doctrine, she’s raising the same issue yet again, and I will deny her motion.
The new doctrine wouldn’t help anyway. Other than in patent cases, the “fraud on the
court” doctrine is “interpreted narrowly” to include only “corruption of the judicial process
itself.” Matter ofMet-L-Wood Corp., 861 F.2d 1012, 1018 (7th Cir. 1998). Discovery violations
do “not constitute the type of extraordinary circumstances which would justify relief ... on

Case: 3:14-cv-00274-jdp Document #: 121 Filed: 03/11/20 Page 2 of 2

the basis of fraud on the court.” Marquip, Inc. v. FosberAm., Inc., 30 F. Supp. 2d 1142, 1146
(W.D. Wis. 1998), affd, 198 F.3d 1363 (Fed. Cir. 1999).

ORDER
IT IS ORDERED that plaintiff Sabina Burton’s motion for relief from judgment and
spoliation sanctions, Dkt. 119, is DENIED.
Entered March 11, 2020.
BY THE COURT:
/s/
JAMES D. PETERSON
District Judge

2

Appendix D: Appeal Dkt. 17 — 8728/20 — Order by Appellate Court
Affirming District Court's decision.

39

File3TU872H72020 Fagfes: 3
Document: 1 f
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Case: ^u-io/9

ISitthh States (Uourt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted August 26,2020’
Decided August 28,2020
Before
MICHAEL S. KANNE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
No. 20-1579
SABINA BURTON,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Western District of
Wisconsin.

v.
No. 14-cv-274-jdp
BOARD OF REGENTS OF THE
UNIVERSITY OF WISCONSIN
SYSTEM, etal.,
Defendants-Appellees.

James D. Peterson,

ChiefJudge.
ORDER

Sabina Burton, formerly a tenured professor at the University of WisconsinPlatteville, appeals the denial of her second post-judgment motion seeking to set aside
the dismissal of her employment-discrimination suit against the school's Board of
Regents and three individual defendants. See Title VII of the Civil Rights Act of 1964,
’ We have agreed to decide this appeal without oral argument because the briefs
and the record adequately present the facts and legal arguments, and oral argument
would not significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

Case: 20-1579

No. 20-1579

Document: 17

Filed: 08/28/2020

Pages: 3

Page 2

42 U.S.C. § 2000e-3(a); Title IX of the Education Amendments of 1972,20 U.S.C. § 1681
et seq. The district court denied the motion as duplicative of an earlier motion it had
denied and, in any case, inapplicable. We affirm.
This is the second time that Burton has asked us to review the proceedings of her
suit. In a prior appeal, we upheld the entry of summary judgment for the Board on both
the Title VII and Title IX claims. See Burton v. Bd. of Regents of the Univ. ofWis. Sys.,
851 F.3d 690,696-97 (7th Cir. 2017).
Nearly two and a half years later, Burton moved to set aside the judgment on
grounds that the defendants, during discovery, had withheld documents that
supported her theory of retaliation. The district court construed her motion under
Federal Rule of Civil Procedure 60(b)(2)—as a request for relief based on newly
discovered evidence—and denied it as untimely because she had not filed it within a
year of entry of judgment. See Fed. R. Civ. P. 60(c). Burton next sought reconsideration,
which the court also denied, warning her that it would not consider any additional
motions on the issue.
Burton nevertheless moved again to reopen the case, reiterating her belief that
the defendants had withheld documents improperly. Their misconduct, she now
asserted, amounted to a "fraud on the court" under Rule 60(b)(3). Unlike other
provisions under Rule 60(b), this provision sets no time limit on a court's power to set
aside a judgment. The court denied this motion too, however, pointing out that she was
"raising the same issue yet again" and that in any event, the doctrine would not apply
because it covers only extraordinary circumstances such as corruption of the judicial
process—far from the civil discovery violations alleged here.
On appeal, Burton challenges this ruling and maintains that defendants
committed fraud on the court by withholding evidence in bad faith. The three cases she
cites in support, however, are all inapposite. See Matter ofMet-L-Wood Corp., 861 F.2d
1012,1019 (7th Cir. 1988) (noting only that ex parte contact by a judge is not fraud on
the court); Domanus v. Lewicki, 742 F.3d 290,302 (7th Cir. 2014) (concluding that
"mosaic" of discovery abuses warranted grant of default judgment but not mentioning
"fraud on the court"); Oliver v. Gramley, 200 F.3d 465,466 (7th Cir. 1999) (not
mentioning discovery violations). As the defendants note, we previously have upheld a
district court's decision to "reasonably dr[a]w a line between an apparent discovery
violation and fraud [on the court]." Wickens v. Shell Oil Co., 620 F.3d 747, 759 (7th Cir.
2010); see also Kennedy v. Schneider Elec., 893 F.3d 414,419 (7th Cir. 2018) (discovery

Case: 20-1579

Document: 17

Filed: 08/28/2020

Pages: 3

No. 20-1579

Page 3

violations do not corrupt the judicial process itself). The district court here acted well
within its discretion by concluding that the alleged violations did not cross that line.
We have considered Burton's other contentions and none has merit.
AFFIRMED

